     LEGAL SERVICES CORPORATION
     OFFICE OF INSPECTOR GENERAL




      AUDIT OF GRANTEE'S
 PRIVATE ATTORNEY INVOLVEMENT
            PROGRAM




Grantee: LEGAL AID OF NORTH CAROLINA


            Recipient No. 634032

            Report No. AU-05-02
               January 2005
                                     TABLE OF CONTENTS

                                                                                                                Page

INTRODUCTION................................................................................................... I

BACKGROUND              ............................................................................................... 1
OBJECTIVES. SCOPE and METHODOLOGY ................................................... 2

RESULTS OF AUDIT .........................................................................................4

         OVERSIGHT AND FOLLOW-UP .............................................................4
           RECOMMENDATION .........................................................................5

         STATISTICAL REPORT ............................................................................5
           RECOMMENDATION ...........................................................................6

SUMMARY OF GRANTEE'S COMMENTS ON DRAFT REPORT.......................6

APPENDIX I .Grantee Comments    ............................................................... I .1
APPENDIX II .OIG On-Site Audit Team .....................................................I .       2
                                INTRODUCTION

The Legal Services Corporation (LSC), Office of Inspector General (OIG)
conducted this audit to evaluate Legal Aid of North Carolina's (grantee)
compliance with the Private Attorney Involvement (PAI) regulation (45 CFR
1614). This regulation requires the grantee to spend an amount equal to at least
12.5 percent of its basic field grant to involve private attorneys in providing legal
services to clients. Grantees are to provide LSC statistics on the private
attorneys involved and the programs must operate efficiently and effectively.



                                   BACKGROUND


Legal Aid of North Carolina, Inc. (LANC) is a non-profit corporation established to
provide legal services to indigent persons who meet applicable eligibility
requirements. LANC is headquartered in Raleigh, North Carolina with branch
offices in Ahoskie, Asheville, Boone, Charlotte, Concord, Durham, Fayetteville,
Gastonia, Goldsboro, Greensboro, Greenville, Henderson, Morganton, New Bern
Pembroke, Pittsboro, Rocky Mount, Sanford, Smithfield, Sylva, Wilmington,
Wilson and Winston Salem. LANC commenced operations on July 1,2002, upon
consolidation of the following: Legal Services of North Carolina (Raleigh), North
Central Legal Assistance Program (Durham), Legal Services of Southern
Piedmont (Charlotte) and The Legal Aid Society of Northwest North Carolina
(Winston Salem). LANC is the only LSC-funded legal service in North Carolina.

The grantee has total staffing of approximately 222 employees, about one-half
are attorneys. The grantee received an LSC basic field grant of $7,483,900 for
2003. LANC's total funding for 2003 was $16,318,794. The PA1 program, as
reflected in the statistical data, includes a higher than average percentage of
extended service cases (33 percent for 2003), with 43 percent family law,
17 percent consumer/finance, and 17 percent housing. Legal services are
provided through pro bono attorneys and reduced fee contractors. In some
instances, staff attorneys provide co-counseling assistance to PA1 attorneys. In
addition, there are a few clinics staffed by private attorneys.

LANC's PA1 plan varies from office to office because of unique circumstances in
each of the counties where programs are located. Of the 1946 closed PA1 cases
for 2003; 823 were closed in Sylva, 216 in Morganton, 177 in Charlotte, 111 in
Raleigh, 84 in DurhamIHenderson and 63 in Smithfield. The remaining cases
were scattered among several offices with no single office reporting more than 60
cases.
LANC has taken action to coordinate PA1 activities, obtaining input from each of
the entities consolidated in 2002. LANC established a task force of the fourteen
PA1 coordinators and also utilizes the former Boards of Directors of the
consolidated entities as advisory boards. In addition, LANC has provided
detailed guidance to ensure that staff timekeeping charges to PA1 are accurate.

In 2003, LANC reported $1,019,875 ($462,737 in LSC funds) to meet the PA1
requirement. This amounted to 13.6 percent of the annualized basic field grant
of $7,483,900. Of the total PA1 expenditures reported, LANC reported $558,148
for staff salaries and benefits, and $461,727 for non personnel costs. The non
personnel costs consisted of allocations for indirect charges such as rent,
equipment and office expenses ($111,630) and expenditures charged directly to
PA1 for payments to reduced-fee contract attorneys ($350,097).



             OBJECTIVES, SCOPE AND METHODOLOGY

The purpose of the audit was to evaluate compliance with requirements
established in 45 CFR 1614, relating to PAI, including effectiveness and
efficiency of PA1 programs (Sec. 1614.l(c)). The on-site portion of this audit was
performed from August 30, 2004 to September 2, 2004. This audit is part of a
series of audits of PA1 the OIG will conduct at a representative number of LSC
grantees to identify systemic weaknesses as well as "best practices." The audit
was performed in accordance with Generally Accepted Government Auditing
Standards.

The audit covered the period from January 1,2003, through December 31,2003,
for accounting data and for statistical data. The OIG reviewed grant applications,
audited financial statements and statistical data reported. The OIG interviewed
the Executive Director (ED), the Assistant Director for Finance and
Administration (AD), and the Finance Director at the headquarters office in
Raleigh. In addition, OIG auditors interviewed the PA1 Coordinators in Raleigh,
Morganton, Wilson, Charlotte and Durham as well as managing attorneys in
Morganton, Wilson and Charlotte. By telephone, OIG auditors interviewed the
technology specialist in Wilson and the contract attorney in Sylva. The OIG
performed the following specific tests:

   1. Planning - Reviewed and evaluated the grant application for 2003.
      Interviewed LSC Office of Program Performance and the LSC Office of
      Compliance and Enforcement staffs to obtain background on prior reviews
      and evaluations. lnterviewed the ED and AD to evaluate planning for
      prioritizing legal needs and for obtaining feedback from community
      organizations and clients on PA1 legal services provided.
2. Statistics - Traced statistical reports (Case Statistical Reports) to closed-
   case listings for PA1 cases. Tested samples of cases for each of the two
   offices where PA1 cases were reported to verify existence, LSC eligibility,
   type of case and level of service. Tested the accuracy of data reported on
   the J-I Report-Components of PA1 by tracing the data to supporting
   documentation.

3. Accounting - Reviewed and evaluated the grantees audited financial
   statements for 2003. Tested a sample of direct PA1 disbursements, tracing
   expenditures to source documentation submitted by vendors and
   evaluating relevance to the PA1 program. Compared a listing of individuals
   who had terminated employment with the grantee in the past two years to
   verify compliance with the prohibition on paying these former employees,
   including reduced-fee contracts for PAI. Evaluated the reasonableness of
   time charged to PA1 by grantee employees, related indirect costs and
   internal controls over accounting for PAI.

4. Oversight - Reviewed self-inspections for 2003. Tested samples of open
   andlor recently-closed cases to evaluate the timeliness of follow-up and
   case closure.

                -
5. Productivity Evaluated statistical and accounting data to assess the
   productivity of the grantee's overall PA1 program by comparing this data to
   national averages. Compared productivity between the PA1 programs at
   the grantee's offices.
                            RESULTS OF AUDIT

The grantee complied with most of the requirements of 45 CFR 1614. Those
aspects of 45 CFR 1614, and related statistical reporting requirements where
improvements are needed is detailed in this section of the report. Specifically the
grantee:

      did not provide adequate oversight and follow-up for cases referred to
      private attorneys (1614.3(d)(3)).

      did not report accurate statistical data on its PA1 program to LSC

Each finding is discussed in detail below.


OVERSIGHT AND FOLLOW-UP

The grantee did not provide adequate oversight or follow-up of cases referred to
private attorneys. This occurred because the grantee had no uniform, written
procedures for follow-up on PA1 cases. As a result, controls were not in place to
ensure prompt disposition of PA1 cases.

A sample of ninety-two cases was selected for review from nine grantee offices
(Raleigh, Morganton, Charlotte, Goldsboro, Wilson, Rocky Mount, Durham, Sylva
and Smithfield). We found sixty discrepancies from six of the nine offices
reviewed (no discrepancies were found for Morganton, Sylva or Smithfield). Of
the discrepancies; one case was not available, five were misclassified as PA1
cases, twenty should have been closed and thirty-four had no documentation of
timely follow-up. Three examples illustrate the problem.

      Case A was opened and assigned to a private attorney in August 2000.
      The attorney was contacted in August 2004, and reported that the case
      had been closed in April 2001. There was no documentation of prior
      contacts with the attorney.

      Case B was opened and assigned to a private attorney in January 2002.
      The most recent follow-up with the attorney occurred in August 2004, but
      the most recent prior contact was in July 2002.

      Case C was opened in July 1995. The case file was not available and
      there was no documentation of contact with the attorney. A follow-up
      initiated by the grantee with the client in August 2004 revealed that legal
      services were provided and completed in 1996.
The grantee had not implemented procedures requiring the staff to follow-up with
private attorneys at least quarterly to determine the status of cases. The grantee
should establish procedures requiring follow up on all PA1 cases, including
documentation of timely follow-up. The establishment of and adherence to such
procedures would substantially correct the follow-up problem without burdening
either grantee staff or the private attorneys.

The OIG recognizes that following up on the status of PA1 cases presents some
difficult challenges for the grantee. The involvement of private attorneys expands
the availability of legal services to eligible clients. The OIG understands that the
grantee certainly does not want to alienate the attorneys and have them leave
the program. However, the follow-up procedures outlined in the prior paragraph
should not be an undue burden to either the private attorneys or grantee staff,
and should ensure the timely disposition of cases as required by the regulation.
These procedures will also help to prevent inaccuracies in the grantee's reports
of closed cases.


RECOMMENDATION

We recommend that the Executive Director

1      Establish procedures requiring grantee staff to follow up with private
attorneys on the status of PA1 cases at least quarterly, including documentation
of timely follow-up.



STATISTICAL REPORT

The grantee reported inaccurate statistical data for 2003 on two statistical
reports. On the CSR report (G-3(d)), the grantee reported 2,313 closed cases for
2003. However, the supporting documentation revealed that 1,946 cases were
closed in 2003. The technical specialist for the grantee advised that this
overstatement of 367 cases for PA1 occurred because the grantee did not modify
its data base for those cases that were initially referred to PA1 attorneys and
subsequently transferred to staff attorneys. Total closed cases reported was
correct since the overstatement of PA1 cases was mirrored by an understatement
of staff cases.

On the J-1 Report-Components of PAI, the grantee reported 2,001 PA1 closed
cases for 2003. The technical specialist reported that this overstatement by 55
cases resulted from erroneously double counting those PA1 cases that were
initially referred to one PA1 attorney and subsequently transferred to another PA1
attorney. Also, the grantee reported 2,806 attorneys agreeing to participate in
the PA1 program and 1,062 who accepted referrals in 2003. However, supporting
documentation showed 838 attorneys "in the PA1 program." The grantee did not
provide a reconciliation or explanation for this discrepancy. Statistical data
should be reported accurately and supporting documentation should be complete
in order to ensure accountability and support reliance on that data.


RECOMMENDATION

We recommend that the Executive Director:

2.    Establishes procedures to ensure that all statistical data reported is
accurate and that supporting documentation is complete.



SUMMARY OF GRANTEE'S COMMENTS ON DRAFT REPORT
GRANTEE COMMENT - OVERSIGHT AND FOLLOW-UP

       The grantee stated that the draft report was accurate and agreed to
implement the recommendation to establish follow-up procedures on the status
of PA1 cases.

GRANTEE COMMENT - STATISTICAL REPORT

       The grantee stated that the draft report was accurate and agreed to
establish procedures to ensure that all statistical data reported is accurate and
that supporting documentation is complete.
                                                                                                          APPENDIX I
                              Legal Aid of North Carolina, Inc.
                                                 Administrative Office
                         224 South Dawson Street - 27601 P.O.Box 26087 Raleigh, North Carolina 27611
                                               919.856.2564 Fax 919.856.2120

                                 Serving low-income clients in all loo countia of North Carolina


George R. Hausen, Jr., Esq.
Executive Director




December 17,2004

Kirt West
Inspector General
Legal Services Corporation
3333 K Street, NW 3'* Floor
Washington, DC 20007-3 522

Re:            LSC OIG PA1 Audit of Legal Aid of North Carolina, #634032.


Dear Mr. West:

I have received and reviewed the draft report on the results of your PA1 audit of our program. I have also
presented it to our Board for discussion at our recent meeting. We found the report accurate and we
intend to implement both recommendations made by the team.

As a newly consolidated program, we appreciated the thoughtful insights and professionalism of the audit
team. This particular process and the resulting report recommendations will certainly will help us
improve our services to clients and strengthen our relationship with the private bar.

Please contact me for any clarification of the points raised by this response.

Thank you.

Sincerely,




?-
 eorge R. Hausen, Jr.
Executive Director


cc:        Leo Allison, Chairman of the Board




                                                                                                       =I'II= LSC
LEGAL AID NC




ZSZZS
                                                  APPENDIX II


                         OIG On-Site Audit Team


David Gellman (Auditor-in-Charge)

Amelia Laguilles

Abel Ortunio
